                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS


                              CLOSEOUT MEMORANDUM


Case Number: A06010002                                                      Page 1of 2



    I n January 2006, the complainant1 called OIG and made allegations which can be
    broadly classified a s (1)programmatic issues, (2) maltreatment of a subordinate,
    and (3) intellectual theft. The PI (subject)2 had a grant to take a group of
    researchers (including targeted minority students) to a foreign country to conduct
    field work.
    (1) The subject allegedly hand-picked non-minority students to take instead of
        qualified, minority students. While i n the foreign country, the P I allegedly
        knew about, and did nothing to stop, alcohol and drug use by the students and a
        sexual relation between a student and a senior advisor. These complaints
        appeared programmatic in nature and were referred to the NSF Program
        Director.3 He said he would contact the grantee and reaffirm NSF's goals of the
        program and his expectations of a research environment.
    (2) The complainant alleged one student became seriously ill while i n the foreign
        country, and the subject lied to the grantee about it. After the illness, the
        subject allegedly removed the student from participation i n the program and
        ostracized her. The subject also allegedly ostracized the complainant when she
        spoke up on behalf of the student. These complaints are best addressed by the
        grantee's Office of Equal Opportunity, and we referred the complainant to t h a t
        office. The complainant was prohibited from participating in the project after
        her return from the foreign country. Since the grantee h a s responsibility for
        the completion of the project, and the complainant was neither PI nor co-PI, the
        grantee may remove her without approval from NSF.
    (3) The complainant said she was the originator of the idea that led to the proposal
        and grant. The complainant approached the subject and another collaborator,4
        and they gave a presentation to the grantee with all three names on it. The
        complainant said the subject later orally claimed the idea was hers and
        continues to do so. Since the complainant agreed to add the subject's and


         Footnote redacted.
       2 Footnote redacted.
       3 Footnote redacted.
       4 Footnote redacted.
                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM


Case Number: A06-02                                                         Page 2 of 2



        collaborator's names to her proposed research a s equals, and there was no
        agreement to segregate contributions, all three can use ideas i n t h a t
        presentation for future research, which is what the subject h a s done.
    I n summary, most of the allegations were not within the jurisdiction of OIG, and
    they have been referred to the appropriate offices. The intellectual theft allegation
    has insufficient substance to proceed. Accordingly, this case is closed.
